 REVIEW OF COMMON PROBLEMS AND BEST PRACTICES IN
     FEDERAL AGENCIES’ TRAVEL CARD PROGRAMS


            Inspections and Evaluation Roundtable
         President’s Council on Integrity and Efficiency
_____________________________________________




                                      REPORT NO.: 2E-98-599-0001
                                     DATE ISSUED: November 27, 2002
TABLE OF CONTENTS

ACRONYMS ................................................................................................................ ii

EXECUTIVE SUMMARY ..........................................................................................iii

FOREWORD .............................................................................................................. iv

INTRODUCTION ........................................................................................................ 1

         Purpose ................................................................................................................ 2

         GSA Master Contract ........................................................................................... 2

         Guidance .............................................................................................................. 3

         GAO’s Standards for Internal Controls ................................................................ 3

         Roles and Responsibilities .................................................................................... 4

COMMON PROBLEMS AND BEST PRACTICES .................................................. 5

APPENDIX – Listing of Office of Inspector General Reports ................................. 13

         ATTACHMENT 1 – Department of Commerce.................................................. 15

         ATTACHMENT 2 – Department of Education................................................... 16

         ATTACHMENT 3 – Department of Justice........................................................ 17

         ATTACHMENT 4 – Department of Labor ......................................................... 18

         ATTACHMENT 5 – Office of Personnel Management ...................................... 19

         ATTACHMENT 6 – Social Security Administration .......................................... 20




                                                                i
ACRONYMS

A/OPC       Agency/Organization Program Coordinator

ATM         Automated Teller Machine

Commerce    Department of Commerce

Education   Department of Education

GAO         General Accounting Office

GSA         General Services Administration

Justice     Department of Justice

Labor       Department of Labor

MCC         Merchant Category Code

OIG         Office of Inspector General

OPM         Office of Personnel Management

SSA         Social Security Administration




                                  ii
EXECUTIVE SUMMARY

The purpose of this report is to aid IG oversight of the Federal Travel Card Program as
well as provide useful information to organizations that administer the travel card
program. This report synthesizes evaluations and audits of six Federal agencies’ travel
card programs, including the Department of Commerce, Department of Labor,
Department of Education, Department of Justice, Office of Personnel Management, and
the Social Security Administration. Although the agencies do not contract with the same
bank or organize their travel card programs in the same manner, we were able to identify
common issues and best practices among these agencies.

In addition to discussing common weaknesses and best practices, the report provides
information on the pertinent terms and conditions of the GSA Master Contract, guidance
that should be consulted in assessing a travel card program, the GAO’s Standards for
Internal Control, and the roles and responsibilities of the parties involved in the travel
card program.

The following is a list of the common problems identified by Inspector General offices.
The best practices to address them are discussed in this report:

   §   Late identification of misuse and delinquency and failure to provide timely
       notification

   §   Failure to monitor transactions for misuse, as well as delinquencies

   §   Not keeping written records of referrals and follow-up

   §   Lack of oversight by A/OPCs

   §   Outdated employee information

   §   No written policies and procedures

   §   Cardholders not understanding their responsibilities

   §   Not disciplining employees who refuse to pay their bills or knowingly make
       inappropriate charges

   §   Ineffective blocking of merchant category codes

   §   Using advances to fund the travel of employees who have lost the use of their
       cards through delinquency or misuse

   §   Excessive ATM use

   §   A large number of inactive accounts


                                             iii
FOREWORD

The President’s Council on Integrity and Efficiency (PCIE) and the Executive Council on
Integrity and Efficiency (ECIE) were established by Executive Order 12805,
May 11, 1992, to
        address integrity, economy, and effectiveness issues that transcend individual
        government agencies, and
        increase the professionalism and effectiveness of Inspector General personnel
        throughout the government.

The PCIE is primarily composed of the presidentially appointed IGs. The ECIE is
mainly composed of the IGs who are appointed by agency heads. Chairing both councils
is the Deputy Director for Management for the Office of Management and Budget. The
Chair appoints the Vice Chair from each council to assist in carrying out its functions.
Officials from the Office of Management and Budget, Federal Bureau of Investigation,
Office of Government Ethics, Office of Special Counsel, and Office of Personnel
Management serve on both councils.

To accomplish their missions, PCIE and ECIE conduct interagency audit, inspection, and
investigative projects aimed at promoting economy, efficiency, and effectiveness in
Federal programs and operations. To enhance the efficiency of these projects, the
councils have also developed policies, standards, and approaches that have helped build a
well-trained and highly skilled OIG workforce. Because PCIE and ECIE are made up of
members from many Federal agencies, these projects can effectively address cross-
cutting or government-wide issues of fraud, waste, and abuse.

Inspection and Evaluation Committee
The Inspection and Evaluation Committee provides contributions to the Inspector
General community as well as the Federal government as a whole by helping to improve
(1) the management of Federal programs; (2) the practice of inspections and evaluations
by sharing effective practices and insights; and (3) the analytic and administrative skills
of OIG inspectors and evaluators by providing training on a variety of pertinent topics.
The Committee is supported by a very active Inspections and Evaluation Roundtable.
The Roundtable, created in 1993, is generally comprised of the directors or heads of
inspection and evaluation units within the Federal Offices of Inspector General. Its
purpose is to promote the professional development of employees in those units, improve
the practice of evaluation and analysis, and provide positive contributions to the Inspector
General community. These advances in professionalism and service aid the Federal
government as a whole in improving the management of programs and operations. The
Roundtable also serves as an adjunct to the Inspection and Evaluation Committee of the
PCIE/ECIE.




                                             iv
INTRODUCTION

Concern over the government’s travel card program arose at a May 1, 2001,
Congressional hearing before the House Government Reform Committee on Government
Efficiency, Financial Management and Intergovernmental Relations. The General
Services Administration (GSA) testified that as of March 2001, Federal employees were
delinquent in paying more than $25 million on their travel card accounts.1 The following
chart shows the delinquency rates of twelve Cabinet-level agencies.


                            Percentage of Outstanding Total Travel Card Balance
                               61+ Days Delinquent -- Agency Yearly Average
                                       October 2001 - September 2002
                           14
                           12
              Percentage




                           10
                            8
                            6
                            4
                            2
                            0
                              Ju D
                                       S




                                                                              PM
                                       A

                               ef e



                              En n




                               In e
                                       r


                            Tr rior
                                     gy




                                      e
                            Ed nse




                                       t
                                    VA
                            Tr ury
                                    bo
                                     H

                                     U




                                    or
                                     c



                                    io
                           C SD




                                    at
                                    ic
                                  er




                                  er

                                  H

                                  H




                                                                             O
                                  at




                                 sp
                                 St
                                 st
                                La



                                 te

                                  s
                                 e
                                m
                                U




                              ea
                               uc




                              an
                             om

                             D




The Travel and Transportation Reform Act of 1998 (Public Law 105-264) requires
government employees to use the Government Travel charge card (travel card) on official
business. Government employees must use their travel card to pay for official expenses,
such as hotel rooms and airline tickets. In 1998, GSA awarded contracts to four banks
(American Express, Citibank, NationsBank and US Bank) to provide travel card services.
The GSA contracts set up a point system that allows Federal agencies to receive rebates
from the banks based on travel card use. Each Federal agency chooses one of the four
banks to provide the services.

The individual cardholder, not the agency, is personally responsible for all travel card
payments. Various government regulations and policies, including the Federal Travel
Regulations and ethic standards, require that cardholders pay their travel card bills and
that the travel card not be used for personal use. In addition, cardholder agreements
usually state that by using the card or signing the agreement, the holder enters into a
contractual agreement with the bank to pay for the charges incurred and to use the travel
1
 http://www.govexec.com/dailyfed/0501.05020ltl.htm. Government Executive Magazine -- 5/02/01
“Federal Workers Misuse of Travel Cards.”


                                                1
card only for official travel and official travel-related expenses. Employees are
reimbursed by their agencies for travel expenses and are expected to use the
reimbursement to pay their travel card bills.

Purpose

The purpose of this report is to aid IG oversight of the Federal Travel Card Program as
well as provide useful information to organizations that administer the travel card
program. After reviewing the evaluations and audits of six Federal agencies’ travel card
programs, including the Department of Commerce, Department of Labor, Department of
Education, Department of Justice, Office of Personnel and Management, and the Social
Security Administration, we were able to identify common weaknesses and best practices
among these agencies. The common problems and best practices we identified can apply
to all agencies regardless of whether they contract with the same bank or organize their
travel card programs in the same manner.

In addition to discussing common weaknesses and best practices, the report provides
information on the pertinent terms and conditions of the GSA Master Contract, guidance
that should be consulted in assessing a travel card program, the GAO’s Standards for
Internal Control, and the roles and responsibilities of the parties involved in the travel
card program.

GSA Master Contract

In 1998, GSA awarded contracts to four banks to provide travel card services. Each
agency issued a task order to one of the four banks under a Master Contract. The Master
Contract has specific terms and conditions which the bank must adhere to for the
suspension and cancellation of the card.

   q Suspension – Under the terms of the Master Contract, Section CB.17, the Bank
     may suspend an account if payment of the undisputed principal amount has not
     been received 61 calendar days from the closing date on the statement of account
     in which the charge appeared. Suspended accounts are reinstated by the bank
     upon payment of the undisputed principal amount.

   q Cancellation – Under the terms of the Master Contract, Section CB.18, the Bank
     may initiate cancellation of an individually billed charge account if:

           1. It is past due 126 days from the closing date on the statement of account in
              which the charge appeared, or

           2. The account has been suspended two times during a 12-month period and
              is past due again, or




                                             2
           3. The card is used for other than authorized purchases and cancellation is
              approved by the Agency/Organization Program Coordinator (A/OPC).

Guidance

In addition to the GSA Master Contract, Agencies can find guidance on travel card
programs in the laws, regulations and policies that concern employee travel. In
particular, agencies should review the following when assessing their travel card
programs:

   q The Travel and Transportation Reform Act of 1998 (Public Law 105-264)

   q Federal Travel Regulations, Chapter 301

   q Title 5, Code of Federal Regulations, Part 2635, Standards of Ethical Conduct for
     Employees of the Executive Branch

   q Agency directives pertaining to travel cards

GAO’s Standards for Internal Controls

The Federal Managers’ Financial Integrity Act of 1982 requires the GAO to issue
standards for internal controls in government. The GAO standards define the minimum
level of quality acceptable for internal control in government and provide the basis upon
which internal control is to be evaluated. (Standards for Internal Control in the Federal
Government. November, 1999, GAO/AIMD-00-21.3.1.)

The GAO lists the following five standards for internal control:

   q Control Environment – Management and employees should establish and
     maintain an environment throughout the organization that sets a positive and
     supportive attitude toward internal controls and conscientious management.

   q Risk Assessment – Internal controls should provide for an assessment of the risks
     the agency faces from both external and internal sources.

   q Control Activities – Internal control activities help ensure that employees carry
     out management directives. The control activities should effectively and
     efficiently accomplish agency control objectives.

   q Information and Communication – Employees should record and communicate
     information to management and others within the entity who need it in a form and
     within a time frame that enables them to carry out their internal control (and
     other) responsibilities effectively and efficiently.




                                            3
   q Monitoring – Internal control monitoring should assess the quality of
     performance over time and ensure that audit and other review findings are
     promptly resolved.

Roles and Responsibilities

Finally, it is important that everyone involved understand his or her roles and
responsibilities in the hierarchy of each agency’s travel card program.

   q Departmental Travel Card Program Coordinator – The Departmental
     Coordinator is responsible for developing and disseminating Department-wide
     travel card policies and procedures, monitoring card use, disputes and
     delinquencies, and representing the Department on Government-wide Travel Card
     Program workshops and committees. The Departmental Coordinator also serves
     as the liaison between the A/OPCs, the issuing bank, and GSA.

   q Agency/Organization Program Coordinator (A/OPC) – The A/OPC serves as
     an intermediary between the cardholder, the bank, and the agency’s management.
     The A/OPC is responsible for educating cardholders on the proper use of travel
     cards, implementing agency policy related to travel card, and reviewing reports
     and following through on delinquent cardholder accounts and travel card misuse.

   q Supervisors – Supervisors are responsible for holding employees accountable for
     paying their travel card bills on time and taking notice when employees are
     delinquent or misuse their cards.

   q Travel Cardholder – The cardholder is responsible for understanding his or her
     agency’s internal policies and procedures regarding the use of the card and the
     Cardholder agreement. Cardholder responsibilities also include record keeping,
     reconciliation, paying his or her monthly statement, reporting lost/stolen cards,
     and notifying the bank within 60 days of a disputed charge.




                                             4
COMMON PROBLEMS AND BEST PRACTICES

This list of common problems and best practices was derived from the evaluations and
audits of six Federal agencies’ travel card programs. The six agencies include the
Department of Commerce (Commerce), Department of Education (Education),
Department of Justice (Justice), Department of Labor (Labor), Office of Personnel
Management (OPM), and Social Security Administration (SSA). If you would like to
learn more about a particular problem or best practice, a complete copy of each of the six
reports is contained in Attachments 1-6. Please see the Appendix for a listing of all of the
reports.

   § Late Identification of Misuse and Delinquency, and Failure to
     Provide Timely Notification

       A/OPCs should notify supervisors in a timely manner so that supervisors can
       determine the reasons for the misuse or delinquency, and address the issue with
       the employee. Timely notification is especially important in cases of
       delinquency. When the cardholder’s supervisor is not notified in a timely manner,
       the delinquent amount may become so great that the cardholder can not readily
       pay it. For example, a Justice employee continued to accrue charges over a period
       of at least four months, resulting in an unresolved delinquency of $23,139. Early
       intervention may also reduce the risk of the employee’s card privileges being
       suspended, which can occur when an employee fails to make a payment within 90
       days. At 120 days, the bank will cancel a delinquent cardholder account.

           Best Practices

               Refer misuse to supervisors as soon as it is detected.

               Refer delinquencies to the cardholder’s supervisor at the 60-day point,
               well before possible suspension of the card and before additional costs can
               be incurred by the cardholder.

   § Failure to Monitor Transactions for Misuse, As Well As
     Delinquencies
       Because the banks send out periodic reports listing delinquent cardholders, it is
       much easier for A/OPCs to identify delinquencies than misuse. Both Education’s
       OIG and OPM’s OIG found that A/OPCs in their agencies were only monitoring
       travel card use for delinquencies. If an A/OPC only monitors delinquencies,
       employees who misuse their card will not be detected unless they became
       delinquent.




                                             5
  Labor’s OIG found that while A/OPCs did monitor for misuse, they varied greatly
  in how they identified it. For example, one A/OPC looked for improper store
  names, such as department stores, and notified the employee and the employee’s
  supervisor if the charge was over $100. Another A/OPC, in addition to looking
  for improper store names, looked for use in and around the employee’s duty
  station and notified the agency regardless of the amount.

     Best Practices

         Give program officials access to on-line reports so that they can monitor
         accounts for misuse.

         Use the various reports available from the banks to monitor and perform
         periodic reviews of travel card use to identify misuse.

         Create an objective standard, such as a checklist, for A/OPCs to use when
         identifying misuse to ensure that all employees are treated equally. The
         checklist should contain the types of transactions or patterns of
         transactions that warrant contacting an employee or an employee’s
         agency, or checking with an employee’s travel voucher to ensure that the
         expenses were incurred on official travel.

§ Not Keeping Written Records of Referrals and Follow-up
  A/OPCs need to keep records of which employees were referred to their
  supervisors for delinquency and misuse, and require written feedback from the
  supervisor or employee. As part of Commerce’s OIG evaluation, the OIG
  submitted examples of American Express reports showing delinquencies or
  charges in question to the appropriate A/OPCs. They asked the A/OPCs to
  examine the circumstances surrounding the delinquency or use of the card;
  provide additional information, such as explanations from supervisors and
  employees; and, provide evidence of actions taken. When the OIG was unable to
  obtain complete explanations from the A/OPCs, they asked agency heads for the
  information. Because the OIG was unable to track which employees had been
  referred to supervisors and what actions the supervisors had taken in response to
  the referral, the OIG was unable to determine whether supervisors were reviewing
  monthly reports and halting card misuse.

  Records of referrals and written feedback not only provide a check on the
  supervisors to ensure that they are following up on the situation, they also provide
  a method for determining how well A/OPCs are monitoring transactions. Written
  records also are important if the situation warrants disciplinary action against a
  cardholder or canceling a travel card due to repeated misuse.




                                       6
     Best Practices

         Keep written records of the employees who were referred to supervisors
         for misuse and delinquency and the circumstances surrounding the
         referral.

         Require written follow-up from either the supervisor or the cardholder
         explaining how the situation has been handled.

§ Lack of Oversight by A/OPCs
  A/OPC supervisors should ensure that A/OPCs follow up on specific
  delinquencies and individuals who misuse their cards. Supervisors may also want
  to periodically review reports and contact A/OPCs when they notice unresolved
  delinquencies or blatant misuse. At Justice, the Federal Bureau of Investigation
  (FBI) coordinator is provided with reports on FBI employees whose accounts are
  100 days past due and personally pursues any delinquencies that appear on the
  report. The supervisor stated that this oversight is valuable because it keeps him
  aware of what is going on in the field and it puts both A/OPCs and supervisors on
  notice that their actions are being scrutinized.

  In response to Labor’s OIG report, the Department decided to provide more
  A/OPC oversight. Delinquency rates for the accounts managed by each A/OPC
  will be provided to the A/OPC and the A/OPC’s supervisor on a recurring basis.
  In addition, the Department coordinator and another designated employee will
  perform random reviews of travel card accounts to determine if the A/OPC is
  properly monitoring the program.

     Best Practice

         Monitor the delinquency rates of each A/OPC and periodically review
         reports to ensure that the accounts are being properly monitored.

§ Outdated Employee Information

  Updating employee information on a regular basis improves the accuracy of travel
  card reports, which is important to effective monitoring of travel card accounts.
  Evaluations by both the OPM and Education OIGs found that the travel card
  accounts of separated employees were not cancelled in a timely manner. OPM’s
  OIG found that 46 terminated employees still had active cards at the time of their
  evaluation. Two of those 46 employees used their cards after their termination
  dates. Transaction history shows charges or ATM withdrawals totaling $793.
  The charges were paid in full.




                                      7
  Justice’s OIG report highlighted the FBI’s practice of sending the bank a monthly
  update of employee’s name and address changes from its personnel records. The
  bank then uses this information to update its information. This saves the A/OPCs
  from monitoring or tracking down employees who no longer work in their
  divisions.

     Best Practices

         Establish a regular schedule for sending a list of all open travel accounts to
         program staff, so that they can review the lists and notify the A/OPCs
         which accounts need to be closed.

         Send the bank a monthly update of names and address changes from the
         personnel system.

§ No Written Policies and Procedures
  Written policies and procedures are a critical element to any Department’s Travel
  Card Program. They are needed to provide guidance and ensure that the program
  is administered consistently. Without written policies and procedures, there is an
  increased risk for inconsistencies, abuse or misuse of the travel card, and higher
  delinquency rates. Labor’s OIG found that the lack of guidance provided to
  A/OPCs resulted in employees being treated differently depending on which
  A/OPC monitored their account. In response to the OIG’s report, the Department
  issued A/OPCs specific instructions on managing delinquencies and misuse. The
  instructions included a list of transactions that may indicate misuse and when and
  how an employee and/or supervisor should be notified of misuse and
  delinquencies.

     Best Practice

         Develop written policies and procedures that include individual
         responsibilities, bank responsibilities and the oversight responsibilities of
         A/OPCs, immediate supervisors and management. The procedures should
         also cover charge card privilege reinstatement, what to do in cases of
         suspected fraud, cancellation procedures for terminated employees, and
         employee penalties for abuse or misuse of the travel card.

§ Cardholders Not Understanding Their Responsibilities
  The bank includes a cardholder agreement when it mails the travel card to the
  employee; however, employees need additional guidance to ensure that they are
  aware of all their responsibilities under the program, the prohibition against
  personal use of the travel card, and the disciplinary actions that may be taken for
  inappropriate use of the card. The Justice, Education and Labor OIGs found that
  their respective Departments did not provide formal training for new cardholders


                                       8
  or refresher training for current cardholders. Cardholders rarely receive guidance
  unless they become delinquent or misuse their cards.

  GSA has on-line training available for the travel card program. The course can be
  accessed through the Internet, requires about an hour to complete, and concludes
  with a quiz. Participants can print a certificate to demonstrate that they have
  successfully completed the course. Departments could use this course, or develop
  one of their own, to ensure that travel cardholders are aware of the requirements
  of the travel card program. If Departments do not want to use an on-line course,
  information on the travel card program can be provided at orientation programs or
  ethics classes.

  Departments may also want to develop materials such as a “Do’s and Don’ts” list
  or “Frequently Asked Questions” to place on a Departmental website or give to
  employees to use as a reference. In addition to employees knowing their
  responsibilities, they should be aware that their transactions are being reviewed,
  and what actions will be taken if they misuse their cards or are delinquent.

     Best Practices

         Require employees to take an on-line training course on the travel card
         program. Current cardholders, as well as new cardholders, should
         complete the course.

         Provide information on the travel card program during current orientation
         programs or ethics classes.

         Develop and distribute materials such as a “Do’s and Don’ts” lists and
         “Frequently Asked Questions” to all employees to use as a reference when
         they have questions.

§ Not Disciplining Employees Who Refuse to Pay Their Bills or
  Knowingly Make Inappropriate Charges

  Managers need to communicate and enforce a zero tolerance policy for travel card
  delinquencies and abuses. Employees who use their travel reimbursements for
  purposes other than paying their bills are misusing Department money, and
  employees that make inappropriate charges are misusing their travel card
  privileges for personal gain. For example, the SSA’s OIG noted that at SSA when
  an employee’s travel card becomes delinquent, SSA sends a notification to the
  cardholder to pay the delinquent account. In addition, the appropriate Deputy
  Commissioner and travel-authorizing official are informed. The delinquency
  notification is placed in the employee’s file for one year. According to SSA,
  these letters are effective in getting employees to pay their delinquent accounts.




                                       9
  To implement effective discipline for charge card delinquencies and employees
  who misuse their travel cards, Departments need to develop and disseminate a
  written policy that outlines specific disciplinary actions ranging from oral
  reprimand to dismissal, as well as guidance on mitigating factors that would
  preclude disciplinary action.

  While first-line supervisors can resolve most instances of delinquency or misuse,
  upper management should be made aware of unresolved delinquencies or of
  serious or frequent misuse when the first-line supervisor has not resolved the
  problem. This not only helps hold the first-line supervisor accountable for taking
  action, it also helps alert management to systematic or serious problems.
  Departments should also implement a mandatory referral policy that covers when
  employees’ unresolved delinquencies and frequent or serious misuse needs to be
  referred to internal affairs units or the OIG.

     Best Practices

         Apply appropriate and consistent discipline to employees who are
         delinquent or misuse their travel cards.

         Develop and disseminate a written policy that outlines specific
         disciplinary policies as well as mitigating factors.

         Alert upper management in instances where the first-line supervisor has
         not resolved delinquencies or serious or frequent misuse.

         Implement a mandatory referral policy that covers when employees’
         delinquency or misuse must be referred to internal affairs or the OIG.

§ Ineffective Blocking of Merchant Category Codes

  Banks can block certain MCC codes on travel card accounts thereby preventing
  the travel cards from being used at certain merchants. Education’s OIG found
  that in FY 2001, 618 charges totaling $93,642 were made to MCCs that were
  subsequently blocked. The Commerce’s OIG also found numerous instances
  where employees used their travel card at retail establishments not normally
  associated with official travel expenses.

     Best Practice

         Work with the bank to place appropriate and effective MCC blocks on
         employee travel cards.




                                      10
§ Using Advances to Fund the Travel of Employees Who Have Lost
  the Use of Their Cards Through Delinquency or Misuse
  Some employees whose cards have been cancelled or suspended due to non-
  payment or misuse are still required to travel as part of their job. While an
  employee may use a Government Travel Request to pay for airline tickets or other
  types of transportation, employees should not be given cash advances for lodging
  and incidental expenses. Providing cash advances not only counteracts the
  benefits derived by the Department from having a travel charge card program in
  place, but it also fails to penalize employees for irresponsible actions. It also
  reduces the incentive for employees to avoid having their cards canceled.

     Best Practice

         Require employees who cannot use their travel cards due to delinquency
         or misuse to pay their travel expenses with cash or personal credit cards.

§ Excessive ATM Use

  The Automated Teller Machine (ATM) cash advance feature of the travel card
  program allows travelers to obtain cash advances to pay for official expenses that
  cannot be charged to the card. ATM withdrawals are allowed only when
  authorized for official travel and are limited to the estimated amount of the
  traveler’s meals and incidental expenses, such as taxis, and other miscellaneous
  expenses that cannot be charged. Because allowable advances vary from trip to
  trip, it is not feasible to place physical controls over ATM withdrawals to ensure
  that employees are only withdrawing the correct amounts. It is also difficult to
  initiate controls to ensure that withdrawals are made only when a cardholder is in
  travel status. Therefore, ATM withdrawals are subject to abuse.

     Best Practice

             Analyze employee’s patterns of delinquencies and inappropriate ATM
             access and assess whether the benefits of ATM use outweigh the costs
             (delinquencies stemming from ATM use, as well as ATM fees and
             surcharges associated with ATM withdrawals, both authorized and
             unauthorized). If the costs outweigh the benefits, agencies should
             eliminate ATM access.

§ A Large Number of Inactive Accounts
  Depending on a Department’s criteria for issuing employees travel cards,
  employees who travel infrequently may have open accounts. Education’s OIG
  noted that many employees had travel cards, but were not frequently traveling.
  Justice’s OIG found that some of the delinquencies contained in their sample were


                                      11
       made by cardholders who traveled infrequently and were unable to resist using the
       available credit to make ATM withdrawals or inappropriate purchases. For
       example, one Justice employee whose delinquency was in excess of $8,000,
       including personal charges and ATM withdrawals, told her A/OPC that she
       voluntarily called the bank and canceled her travel card because of her inability to
       control her spending.

              Best Practices

                  Review inactive accounts and determine if some of them should be
                  closed.

                  Assess travel requirements and consider not issuing cards to
                  employees who rarely travel.

                  Consider having administrators maintain custody of travel cards when
                  employees are not in travel status.

Conclusion
The list of common problems and best practices addresses crosscutting or government-
wide issues of fraud, waste and abuse. While this list may not be exhaustive, it is an
excellent place for other IGs and program managers to start when evaluating their own
agency’s travel card programs. We believe that by adopting these best practices, Federal
agencies can strengthen their travel card programs and reduce travel card misuse and
delinquency.




                                           12
        APPENDIX

Listing of Inspector General
           Reports




             13
Appendix – Office of Inspector General Reports

Department of Commerce:
Departmental Travel Expenses Need Better Control and Oversight. Audit Report No.
EAD-7129-5-0001, September 1995 (See Attachment 1.)

Department of Education:
Audit of Controls Over Government Travel Cards. ED-OIG/A19-B0010, March 2002
(See Attachment 2.)

Department of Justice:
Review of Travel Charge Card Delinquencies. Report No. I-2001-001, March 30, 2001
(See Attachment 3.)

Department of Labor:
Evaluation of the Department of Labor’s Travel Card Program – OCFO and OASAM.
Report No. 2E-07-001-0001, March 26, 2002 (See Attachment 4.)

       Evaluation of the Department of Labor’s Travel Card Program – Office of
       Inspector General. Report No. 2E-09-910-0001, March 26, 2002

       Evaluation of the Department of Labor’s Travel Card Program –Pension and
       Welfare Benefits Administration. Report No. 2E-12-001-004, March 26, 2002

       Evaluation of the Department of Labor’s Travel Card Program – Veterans’
       Employment and Training Service. Report No. 2E-02-001-0001

Office of Personnel Management:
Report on Audit of Internal Controls Over The Office of Personnel Management’s Travel
Card Program. Report No. 4A-CF-00-01-102, November 15, 2001 (See Attachment 5.)

Social Security Administration:
Congressional Response Report, The Social Security Administration’s SmartPay
Program. Report No. A-13-02-22059, November 2001 (See Attachment 6.)




                                         14
